APPENDIX

1a

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
____________________________
No: 19-1916
____________________________
United States of America
Plaintiff - Appellee
v.
Joel Zupnik
Defendant - Appellant
___________________
Appeal from United States District Court
for the District of South Dakota - Rapid City
___________________
Submitted: May 12, 2020
Filed: March 2, 2021
___________________
Before SMITH, Chief Judge, MELLOY
SHEPHERD, Circuit Judges.
___________________

and

MELLOY, Circuit Judge.
A jury found Joel Zupnik guilty of one count of
attempted enticement of a minor using the internet, in
violation of 18 U.S.C. § 2422(b). On appeal, Zupnik

2a
argues there was insufficient evidence to support his
conviction. We affirm.
I.
In August 2016, law enforcement officers conducted
an undercover operation near Sturgis, South Dakota,
during the Sturgis Motorcycle Rally. As part of the
operation, agents responded to advertisements on the
website, Craigslist, in order to identify individuals
who were actively seeking children for sexual
purposes.
On August 8, 2016, Zupnik posted a personal
advertisement in the Casual Encounters section of
Craigslist. Zupnik’s advertisement indicated he was
looking for “a woman” and was titled, “Bang a
biker!! :).” The Casual Encounters section requires
users to check a box representing they are over 18
years old. Zupnik’s advertisement did not indicate or
imply he was looking for a minor.
Officer Brian Freeouf responded to Zupnik’s
advertisement, pretending to be a minor female
named “Kelli.”
Through Craigslist-based email
messages, Officer Freeouf sent Zupnik an ageregressed photo of “Kelli” and said: “This sounds
interesting.” Zupnik called her “sweet baby girl” and
asked: “[W]hat are you up to this rally eve??” When
“Kelli” did not respond right away, Zupnik asked:
“[W]hatcha in the mood for??” “Kelli” explained: “Mom
came home early last night so I had to quit talking.”
Zupnik responded: “Well I am here when you get
serious.” Zupnik then sent a photo of himself and
asked: “You free to play??” “Kelli” provided her cell
phone number and asked Zupnik to text message her.
Zupnik responded: “You want to come see what an

3a
older, experienced man knows? Be a good girl and this
man happens to also be open for long term if you are
looking for something better with no drama.” “Kelli”
replied: “I definitely hate drama so drama free is good.
I hope you are okay with younger. I am just tired of
dealing with boys.” Zupnik again responded on
Craigslist: “I like younger.”
Once the conversation moved to text messages,
“Kelli” told Zupnik she was 15 years old. Zupnik
replied: “Didn’t you read my add? I think you are sexy
but I am kinda waaayyy too old for you ! Lol.” Kelli
responded that she was “just tired of boys.” Zupnik
said: “If you wanna daddy like me, you are gonna have
to keep it a secret and on the dl. If it worked out I
would have to tell the neighbors I rented a room out to
a student or something lol.” He then wrote: “I could
show you so many things that it took years to learn but
you are not even legal LOL. Guess it is up to you on
how you want to move forward.” “Kelli” replied: “I am
down with whatever but I am not experienced at all.
Embarrassed.” Zupnik asked for more pictures and
discussed details of meeting in person at a high school
in Rapid City. Zupnik and “Kelli” continued to
communicate, sending each other text messages of a
sexual nature.
Zupnik asked “Kelli” about her
experience with orgasms, masturbation, and oral sex.
When “Kelli” told Zupnik that she did not have
experience with oral sex, Zupnik said: “Maybe we
could start there and see how it goes.” Zupnik
indicated he would bring his car, not his motorcycle, to
their meeting because there is “not much room on the
bike for relaxing.” “Kelli” asked if she should bring
condoms, and Zupnik said: “Sounds good.” When

4a
Zupnik arrived at the high school, law enforcement
officers placed him under arrest.
Zupnik was indicted for attempted enticement of a
minor using the internet. 18 U.S.C. § 2422(b). The
case went to trial. The government called three
witnesses, all law enforcement officers involved in the
investigation leading to Zupnik’s arrest. At the close
of the government’s case, Zupnik moved for judgment
of acquittal. The district court1 denied the motion.
The district court found Zupnik was entitled to an
entrapment jury instruction. On December 12, 2018,
the jury found Zupnik guilty. The district court
sentenced him to the mandatory minimum term of 10
years’ imprisonment.
II.
On appeal, Zupnik argues the verdict was not
supported by sufficient evidence and the district court
erred in denying his motion for judgment of acquittal.
He argues the government failed to prove (1) he used
a facility of interstate commerce, (2) he had the
requisite criminal intent, and (3) he was not
entrapped. We review de novo, United States v. May,
476 F.3d 638, 640–41 (8th Cir. 2007), considering the
evidence presented at trial in the light most favorable
to the verdict and drawing all reasonable inferences in
the government’s favor, United States v. McAtee, 481
F.3d 1099, 1104 (8th Cir. 2007). We will reverse only
if no reasonable jury could have found Zupnik guilty
beyond a reasonable doubt. United States v. Santana,
524 F.3d 851, 853 (8th Cir. 2008).

1

The Honorable Jeffrey L. Viken, then Chief Judge, now
United States District Judge for the District of South Dakota.

5a
In order to convict Zupnik, the government needed
to prove beyond a reasonable doubt that he
(1) used a facility of interstate commerce, such as
the internet or the telephone system; (2)
knowingly used the facility of interstate
commerce with the intent to persuade or entice a
person to engage in illegal sexual activity; and (3)
believed that the person he sought to persuade or
entice was under the age of eighteen.
United States v. Strubberg, 929 F.3d 969, 974 (8th Cir.
2019) (quoting United States v. Young, 613 F.3d 735,
742 (8th Cir. 2010)). Because Zupnik was indicted for
attempting to commit the offense, the government
needed to prove he (1) had “intent to commit the
predicate offense”; and (2) engaged in “conduct that is
a substantial step toward its commission.”
Id.
(quoting United States v. Spurlock, 495 F.3d 1011,
1014 (8th Cir. 2007)). The “illegal sexual activity”
forming the basis of Zupnik’s indictment was fourth
degree rape and felony sexual contact under South
Dakota law. S.D. Codified Laws §§ 22-22-1(5) and 2222-7.
A.
Zupnik argues the government failed to prove the
jurisdictional element of his offense. He argues the
initial communications on Craigslist could not support
his conviction because “Kelli” did not reveal her age
until the conversation moved to text messages. And,
he argues, the text messages alone could not support
his conviction because the government did not present
evidence that the text messages involved Zupnik’s own
use of the internet, only that the text messages from

6a
“Kelli” were sent through an internet-based law
enforcement system.
Section 2422(b)’s jurisdictional element is satisfied
if the defendant used “any facility or means of
interstate or foreign commerce” to attempt to entice a
minor. 18 U.S.C. § 2422(b). The indictment charged
Zupnik with using a “facility and means of interstate
commerce, that is, a cellular phone and computer
attached to the Internet, to attempt to” entice a minor.
Before trial, the parties stipulated that Zupnik was
arrested “in possession of an internet capable cellular
phone with texting capabilities.”
At trial, the
government presented evidence showing Zupnik used
his “internet capable cellular phone” for all
communications with “Kelli.” The government also
presented Officer Freeouf’s testimony, in which he
stated that, when “a message is sent from [the task
force’s] system, it’s sent through the Internet to the
servers that run the program and eventually is sent
through the cellular networks to the recipient.” The
jury was instructed, in part, that the government
needed to prove beyond a reasonable doubt that
“Zupnik used a cell phone or computer attached to the
internet to attempt to knowingly persuade, induce,
entice or coerce an individual under the age of 18 to
engage in sexual activity.” Relatedly, the jury was
instructed: “The internet is an instrumentality and
channel of interstate commerce.” Zupnik does not
challenge the jury instruction.
The evidence showed that Zupnik communicated
with “Kelli” exclusively on his internet-capable
cellular phone—first by using the Craigslist website to
exchange emails and then by using text messages
transmitted through cellular networks and a law

7a
enforcement internet-based program. Given that the
jury was presented with Zupnik’s entire course of
conduct, starting with his communications with
“Kelli” on Craigslist, his argument that the text
messages lack a jurisdictional nexus is unavailing.
On this record, a reasonable jury could have found that
Zupnik attempted to entice a child using a means or
facility of interstate commerce. See United States v.
Havlik, 710 F.3d 818, 824 (8th Cir. 2013) (“The
Internet is an instrumentality and channel of
interstate commerce.”); United States v. Trotter, 478
F.3d 918, 921 (8th Cir. 2007) (per curiam) (“As both
the means to engage in commerce and the method by
which transactions occur, ‘the Internet is an
instrumentality and channel of interstate commerce.’”
(citation omitted)).
B.
Next, Zupnik argues the government failed to prove
he had the requisite criminal intent to support his
conviction.
He argues that the evidence was
insufficient for the jury to find that he possessed the
requisite intent to persuade “Kelli” to engage in sexual
activity because she was “apparently willing.” He
relies, in particular, on the fact that it was “Kelli” who
responded to his advertisement and that, once he
learned her age, he expressed doubt and hesitancy.
Zupnik asks us to apply an inapposite case from the
United States Court of Appeals for the District of
Columbia Circuit, United States v. Hite, 769 F.3d
1154, 1160 (D.C. Cir. 2014), which interpreted
§ 2422(b) to make communications with an adult
intermediary to “persuade, induce, entice, or coerce a
minor” punishable only if “the defendant’s interaction

8a
with the intermediary is aimed at transforming or
overcoming the minor’s will in favor of engaging in
illegal sexual activity.” Hite is not applicable here for
multiple reasons, including the fact that Zupnik
believed he was communicating directly with a minor,
not an adult intermediary. To the extent Zupnik
argues we should adopt Hite’s definition of the terms
“persuade, induce, entice, or coerce,” we decline to do
so. See id. at 1161 (“The ordinary meanings of the
verbs persuade, induce, entice, and coerce
demonstrate that § 2422(b) is intended to prohibit acts
that seek to transform or overcome the will of a
minor.”). Our precedent makes clear that a defendant
can be found to “persuade” or “entice” even a
seemingly “willing” minor. See United States v.
Patten, 397 F.3d 1100, 1102 (8th Cir. 2005) (finding
the evidence sufficient to support a § 2422(b)
conviction where an undercover officer pretended to be
a 16 year-old-girl who responded “yeah, you’re hot”
when the defendant asked if she wanted to “hook up”).
We will not read any additional requirement into the
statute.
Here, although it was “Kelli” who responded to his
advertisement, the jury was presented with evidence
tending to show that Zupnik persistently sent
messages to “Kelli” with expressions of his sexual
interest in her and descriptions of specific sex acts he
would like to perform with her, even after learning her
age. Zupnik asked “Kelli” questions about her sexual
history and sexual interests. He used terms of
endearment toward “Kelli” and expressed a desire that
she be comfortable with him before attempting any
sexual conduct with her. He arranged to meet her,

9a
arrived at the specified location, and brought his car
instead of his motorcycle.
This
evidence,
including
testimony
and
conversation transcripts, was sufficient to support a
reasonable jury’s conclusion that Zupnik intended to
persuade or entice “Kelli” to engage in sexual activity.
United States v. Flynn, 196 F.3d 927, 929 (8th Cir.
1999) (explaining that the element of intent “need not
be proved directly and can be inferred from the facts
and circumstances surrounding a defendant’s
actions”). Further, under South Dakota law, even
“consensual” sexual contact with a fifteen-year-old
would have been criminal. S.D. Codified Laws §§ 2222-1(5) and 22-22-7. Therefore, “Kelli’s” apparent
willingness does not change our analysis. See United
States v. Riepe, 858 F.3d 552, 559 (8th Cir. 2017)
(holding that the evidence was more than sufficient to
establish intent where the defendant “discussed
specific sex acts that he would like to perform with [the
minor],” “ultimately arranged to meet her,” and
“arrived at the specified location”); United States v.
Shinn, 681 F.3d 924, 931 (8th Cir. 2012) (“In
attempted enticement of a minor cases, the
defendant’s intent can be inferred when the defendant
has online conversations of a sexual nature with a
minor.” (quoting Young, 613 F.3d at 742)).
C.
Finally, Zupnik argues the government failed to
rebut his defense of entrapment. Entrapment is an
affirmative defense and a defendant is only entitled to
an entrapment instruction if he produces sufficient
“evidence that the government induced the criminal
conduct.” Young, 613 F.3d at 746–47. Inducement can

10a
be shown by evidence that the government “made the
initial contact,” “introduced the topics of sex and
meeting in person,” or otherwise “influenced [the
defendant’s] behavior by portraying [minors] as
sexually precocious teenagers.” United States v.
Myers, 575 F.3d 801, 806 (8th Cir. 2009).
Here, the district court found that Zupnik made a
showing of inducement sufficient to warrant
instructing the jury on entrapment. The burden then
shifted to the government to prove beyond a
reasonable doubt that Zupnik was predisposed to
commit the crime. United States v. Kendrick, 423 F.3d
803, 807 (8th Cir. 2005). To this end, Zupnik proposed
an entrapment instruction, which the district court
adopted with slight modification. Zupnik does not
challenge the instruction on appeal. The jury was
instructed, in part, that the
government has the burden of proving beyond a
reasonable doubt that Mr. Zupnik was not
entrapped by showing either: (1) Mr. Zupnik was
willing to solicit a minor before he was
approached or contacted by law enforcement
agents; or (2) the government, or someone acting
for the government, did not persuade or talk Mr.
Zupnik into soliciting a minor. In deciding
whether Mr. Zupnik was willing to solicit a minor
before he was approached or contacted by law
enforcement agents, you may consider whether
the defendant enthusiastically responded and
promptly availed himself of his first opportunity
to commit a crime without government prodding.
If the government proves either of these beyond a
reasonable doubt, you must reject Mr. Zupnik’s
claim of entrapment. If the government fails to

11a
prove at least one of these beyond a reasonable
doubt, then you must find Mr. Zupnik not guilty.
Zupnik now argues the government’s evidence was
insufficient to rebut his defense of entrapment because
the government did not show “his predisposition to
commit the federal offense of obtaining a minor’s
assent to unlawful sexual activity by overcoming her
will.”2 At trial, the evidence showed that “Kelli”
initiated contact and Zupnik had not been seeking a
minor with his advertisement. However, the evidence
also showed that, knowing “Kelli’s” age, Zupnik
proceeded to exchange sexually explicit messages with
her and plan to meet her in person to engage in sexual
acts. There was more than sufficient evidence that the
jury could have relied upon in finding that Zupnik
responded promptly to the opportunity to solicit a
minor and was, therefore, not entrapped by the
government.
See Myers, 575 F.3d at 807–08
(explaining that “when a defendant responds
immediately and enthusiastically to his first
opportunity to commit a crime, without any period of
government prodding, his criminal disposition is
readily apparent”); United States v. LaChapelle, 969
F.2d 632, 635 (8th Cir. 1992) (holding that the
defendant was predisposed to purchase child
pornography where he “promptly and independently
inquired about child pornography without being
pressured to do so in any way” and because of his
immediate acceptance of the government’s offer); see
also S.D. Codified Laws §§ 22-22-1(5) and 22-22-7.
2

To the extent Zupnik implies the government needed to
make an additional showing under Hite, we again reject his
argument for the reasons stated above.

12a
We affirm the judgment of the district court.
________________________

13a

APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1916
United States of America
Appellee
v.
Joel Zupnik
Appellant
Appeal from U.S. District Court for the
District of South Dakota - Rapid City
(5:16-cr-50110-JLV-1)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
April 01, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.

/s/ Michael E. Gans

